al
Case: 19-2984

Document: 59

Page: 1

Date Filed: 12/15/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2984
ANTONIA LERNER,
Appellant
v.

CITIGROUP

Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 2-16-cv-01573)
District Judge: Hon. Kevin McNulty

Submitted under Third Circuit L.A.R. 34.1(a)
September 15, 2020

Before: KRAUSE, RESTREPO, and BIBAS, Circuit Judges.
(Filed: December 15, 2020)

OPINION*

* This disposition is not an opinion of the full Court and, pursuant to I.O.P. 5.7, does not
constitute binding precedent.

a2
Case: 19-2984

Document: 59

Page: 2

Date Filed: 12/15/2020

RESTREPO, Circuit Judge
Antonia Lemer appeals the denial of her motion to vacate the Arbitrator’s award,
which granted her former employer Citigroup Inc. (Citigroup) summary judgment and
dismissed her claims of discrimination. On appeal, Ms. Lerner argues she never
consented to arbitration and the Arbitrator committed misconduct by refusing to consider
evidence of Citigroup’s alleged retaliatory conduct. We agree with the District Court that
Ms. Lemer failed to prove her misconduct claim. Furthermore Ms. Lemer forfeited her
consent claim by raising it for the first time before this Court. We will therefore affirm
the order sustaining the award.
I.
Ms. Lemer was employed by Citigroup, a global financial services firm, as an
Apps Support Senior Analyst in Jersey City, New Jersey. She was terminated from her
position in May 2015. App. 266. Citigroup maintained that the termination was due to a
cost saving program which entailed moving her position to India. Ms. Lemer contended
the termination was motivated by discrimination and filed a complaint with the Equal
Employment Opportunity Commission (EEOC), alleging sex and disability
discrimination. App. 42. The EEOC dismissed the complaint in February 2016, stating
it was “unable to conclude” that any of the statutes enforced by the Commission had been
violated. App. 36.
In March 2016 Ms. Lemer filed a complaint in the District Court, alleging that
Citigroup failed to accommodate her disability, discriminated against her race, sex and
disability, and illegally retaliated against her for filing a complaint with the EEOC. Ms.
2

a3
Case: 19-2984

Document: 59

Page: 3

Date Filed: 12/15/2020

Lemer asserted claims under Title VII of the Civil Rights Act, 42 U.S.C. §2000e, et seq.,
the Americans with Disabilities Act, 42 U.S.C. §12101, et seq., and the New Jersey Law
Against Discrimination (NJ. Stat. Ann. §10:5-1 et seq.) App. 27,267.
Citigroup filed a motion to compel arbitration, which the District Court granted
after concluding that a valid arbitration agreement existed between Ms. Lemer and the
company. App. 222-24. Ms. Lemer did not object to the motion or the Court’s order;
she instead filed a demand for arbitration with the American Arbitration Association
(AAA). App. 227.
An arbitrator was selected and entered scheduling orders to govern discovery. At
the conclusion of discovery, Citigroup requested leave to file a motion for summary
judgment. In December 2017 Ms. Lemer requested and was granted a conference call,
during which the Arbitrator explained that it was her burden to provide facts and relevant
law to establish her claims. App. 275, n. 6.
in March 2018 Citigroup filed its motion for summary judgment. Ms. Lemer filed
her response along with her affidavit. App. 269. The Arbitrator granted the motion for
summary judgment, finding that Ms. Lemer failed to establish her disability and
discrimination claims and offered only speculation to support her retaliation claim. App.
275-6.
In the District Court, Ms. Lemer, proceeding pro se, moved to vacate the award,
alleging that the Arbitrator failed “to understand that being laid off twice within weeks of
each other is very traumatizing,” that there was a conflict of interest between Citigroup
and the AAA, and the Arbitrator failed to properly review facts in support of her claims.
3

a4
Case: 19-2984

Document: 59

Page: 4

Date Filed: 12/15/2020

App. 164-66. The District Court denied the motion, finding that Ms. Lemer did not
establish grounds to vacate the award. With regard to the allegation that the Arbitrator
failed to consider relevant facts, the Court found that “Ms. Lemer does not explain what
pertinent evidence the arbitrator allegedly refused to hear.” App. 18.
On appeal, Ms. Lemer argues for the first time that she never consented to
arbitration. She also renews her assertion that the Arbitrator committed misconduct by
failing to consider evidence supporting her retaliation claim.1 Neither claim entitles Ms.
Lemer to relief and we therefore affirm the District Court’s order denying the motion to
vacate the arbitration award.
II.
The District Court had jurisdiction under 9 U.S.C. § 9, and we have appellate
jurisdiction under 9 U.S.C. § 16(a)(1)(D). We review de novo the District Court’s denial
of a motion to vacate an arbitration award. Dluhos v. Strasberg, 321 F.3d 365, 369 (3d
Cir. 2003). Our review of the Arbitrator’s decision, however, is “extremely deferential.”
Id. at 370 (“The net result of a court’s application of this standard is generally to affirm
easily the arbitration award[.]”).
III.
Ms. Lemer asserts she never consented to the arbitration clause in Citigroup’s
employee handbook and the District Court erred by finding a valid arbitration agreement
existed. She claims for the first time on appeal that acknowledging the arbitration clause

i

Ms. Lemer filed the motion to vacate in District Court pro se but was represented by
counsel before this Court.
4

a5
Case: 19-2984

Document: 59

Page: 5

Date Filed: 12/15/2020

in the employee handbook did not constitute a valid waiver of a judicial forum, and the
arbitration award should therefore be vacated. Appellant’s brief, 9.
Ms. Lemer did not present this non-consent argument to the District Court or at
any stage of the arbitration proceedings. The failure to do so precludes relief on appeal.
“Our Circuit adheres to a ‘well established principle that it is inappropriate for an
appellate court to consider a contention raised on appeal that was not initially presented
to the district court.’” Lloyd v. HOVENSA, LLC., 369 F.3d 263, 272-73 (3d Cir. 2004)
(quoting In re City ofPhila. Litig., 158 F.3d 723, 727 (3d Cir. 1998)). Ms. Lemer’s
argument that she did not consent to arbitration does not constitute a jurisdictional matter
that can be raised at any stage of the proceeding. Whether an agreement to arbitrate
existed between the parties constitutes a contract claim that Ms. Lemer forfeited by not
raising it before the District Court. Id. at 272. Further, Ms. Lemer has not alleged any
exceptional circumstances that would warrant review of her non-consent claim. Birdman
v. Office of the Governor, 677 F.3d 167, 173 (3d Cir. 2012) (“It is axiomatic that
arguments asserted for the first time on appeal are deemed to be waived and consequently
are not susceptible to review in this Court absent exceptional circumstances.”) (internal
quotation marks omitted).
Ms. Lemer’s ability to raise the claim at this stage is further compromised by her
full engagement in the arbitration process. She did not object to Citigroup’s motion to
compel arbitration but instead filed a demand for arbitration with the AAA after the
motion was granted. She produced documents, gave depositions, and filed a response to
Citigroup’s motion for summary judgment, all without making any objection to or
5

a6
Case: 19-2984

Document: 59

Page: 6

Date Filed: 12/15/2020

argument before the Arbitrator concerning her consent to arbitration. App. 268-69. Ms.
Lemer did not cite any opposition to arbitration in her motion to vacate. App. 164-66.
Because Ms. Lemer never indicated her alleged lack of consent to Citigroup, the
Arbitrator or the District Court, she forfeited this basis for overturning the arbitration
award.
IV.
Ms. Lemer next asserts that the Arbitrator committed misconduct by refusing to
consider evidence that Citigroup retaliated against her by blocking her access to its
internal job listings. We disagree.
The Federal Arbitration Act permits a court to vacate an arbitration award where
the Arbitrator “refus[ed] to hear evidence pertinent and material to the controversy.” 9
U.S.C. § 10(a)(3). However, “[vjacatur is appropriate only in ‘exceedingly narrow’
circumstances[.]” Metromedia Energy, Inc. v. Enserch Energy Servs., Inc., 409 F.3d 574,
578 (3d Cir. 2005) (quoting Dluhos, 321 F.3d at 370). There is a strong presumption in
the Act that favors enforcing arbitration awards, and an “award is presumed valid unless
it is affirmatively shown to be otherwise[.]” Brentwood Med. Assocs. v. United Mine
Workers ofAm., 396 F.3d 237, 241 (3d Cir. 2005).
Although we are mindful of our obligation to construe pro se filings liberally, see
Giles v. Kearney, 571 F.3d 318, 322 (3d Cir. 2009), Ms. Lemer failed to demonstrate any
misconduct on the part of the Arbitrator. Although her motion to vacate alleged that
Citigroup blocked her “internal access” to job listings, she never attributed the alleged
blocking to an act of retaliation by her former employer. App. 164. Because Ms. Lemer
6

a7
Case: 19-2984

Document: 59

Page: 7

Date Filed: 12/15/2020

failed to “explain what pertinent evidence the arbitrator allegedly refused to hear,” the
District Court properly dismissed her allegations of arbitrator misconduct. App. 18. On
appeal, Ms. Lemer attempts to remedy her failure by arguing the allegations of blocked
access constituted pertinent evidence of retaliation that the Arbitrator refused to consider.
We agree with Citigroup that this claim of retaliation is too speculative and attenuated to
pose a viable cause of action, rendering Ms. Lemer’s claim of Arbitrator misconduct
meritless.
V.
Having considered Ms. Lerner’s arguments and deemed them insufficient to
warrant relief, we will affirm the order dismissing the motion to vacate the arbitration
award.

7

a8
Case 2:16-cv-01573-KM-MAH Document 9 Filed 08/01/16 Page 1 of 3 Page ID: 157

NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ANTONIA LERNER,
Civ. No. 16-CV-1573 (KM) (MAH)

Plaintiff,
v.

MEMORANDUM OPINION
& ORDER

CITIGROUP,
Defendant

The plaintiff, Antonia Lemer, pro se, brought this action for money
damages against her former employer, Defendant Citigroup Inc., for alleged
racial, gender and disability discrimination arising out the termination of
plaintiff’s employment. Lemer has asserted claims under Title VII of the Civil
Rights Act of 1964, 42 U.S.C. § 2000e et seq., the Americans with Disabilities
Act of 1990(“ADA”), 42 U.S.C. § 12101 et seq., and the New Jersey Law Against
Discrimination (“NJLAD"), N.J.S.A. § 10:5-1 et seq. Citigroup has moved to
compel arbitration of the dispute and to dismiss the complaint or stay further
proceedings. (Dkt. No. 8) The plaintiff has not opposed the motion. For the
reasons set forth below, the motion to compel arbitration will be granted and
proceedings in this Court will be stayed.
Where a suit is brought in a district court on an issue that is referrable
to arbitration under a valid arbitration agreement, the Federal Arbitration Act
instructs that the court “shall on application of one of the parties stay the trial
of the action until such arbitration has been had in accordance with the terms
of the agreement.” 9 U.S.C. § 3. In determining whether to compel arbitration,
a court must then analyze (1) whether there is an agreement to arbitrate, and
(2) whether the dispute falls within the scope of the agreement. See Century
Indemn. Co. v. Certain Underwriters at Lloyd's, 584 F.3d 513, 523 (3d Cir.
1

a9
.

Case 2:16-cv-01573-KM-MAH Document 9 Filed 08/01/16 Page 2 of 3 PagelD: 158

2009). This inquiry is guided, however, by a presumption of arbitrability. AT&T
Techs, v. Commc‘ns Workers of Am., 475 U.S. 643, 650, 106 S.Ct. 1415 (1986).
Thus, ambiguities as to the scope of the arbitration agreement are resolved in
favor of arbitration. See Voltlndo. Scis., Inc. v. Bd. ofTrs. OfLeland Stanford
Junior Univ., 489 U.S. 468, 476, 109 S.Ct. 1248 (1989).
A valid arbitration agreement exists in this case. Cititgroup’s U.S.
Employee Handbook contains an Appendix entitled “Employment Arbitration
Policy.” (Dkt. No. 8. Ex. B p. 53) The policy provides that arbitration is
the required and exclusive forum for the resolution of all employmentrelated disputes (other than disputes which by statute are not subject to
arbitration) which are based on legally protected rights (i.e., statutory,
regulatory, contractual, or common-law rights) and arise between you
and Citi[.]
Id. Included in a list of sample disputes are those brought under Title VII, the
ADA, and “any other federal, state, or local statute, regulation, or common-law
doctrine regarding employment, employment discrimination, the terms and
conditions of employment, termination of employment,” etc. Id. A separate
appendix in the Employee Handbook sets forth what are termed “Principles of
Employment.” Id. at p. 68. The fourth principle provides that “you and Citi
agree to follow Citi’s dispute resolution/arbitration procedure for resolving all
disputes arising out of or relating to your employment with and separation
from Citi.” Id.
Employees at Citigroup are required to sign a form acknowledging that
they understand their obligation to review the Employee Handbook. This
acknowledgement form also includes the following:
Appended to the Handbook is an Employment Arbitration Policy as well
as the “Principles of Employment" that require you to submit
employment-related disputes to binding arbitration (see Appendix A and
Appendix D). You understand that it is your obligation to read these
documents carefully, and that no provision in this Handbook or
elsewhere is intended to constitute a waiver, nor be construed to
constitute a waiver, of Citi’s right to compel arbitration of employmentrelated disputes.

2

alO
Case 2:16-cv-Ol573-KM-MAH Document 9 Filed 08/01/16 Page 3 of 3 PagelD: 159

Dkt. No. 8, Ex. C. Plaintiff electronically signed this acknowledgement form on
three occasions: December 18, 2008, December 29, 2010, and December 20,
2012. Id.
I find that there valid agreement to arbitrate employment-related
disputes. Additionally, all of Plaintiffs claims concern matters covered by the
arbitration provision. Indeed, the provision explicitly includes claims brought
under Title VII, the ADA, and state discrimination laws, such as NJLAD.
Accordingly,
IT IS this 1st day of August, 2016,
ORDERED that Defendant's motion to compel arbitration and stay this
matter is GRANTED.

3

all
Case 2:16-cv-01573-KM-MAH Document 30 Filed 04/12/19 Page 1 of 1 PagelD: 337

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
ANTONIA LERNER,
Civ. No. 16-CV-1573 (KM) (MAH)

Plaintiff,
v.

ORDER

CITIGROUP,
Defendant

THIS MATTER having come before the Court on the motion of Plaintiff
Ms. Lemer to vacate the arbitration award (DE 23); and Defendant Citigroup
having opposed the motion (DE 28); and the Court having considered the
papers before it without oral argument pursuant to Fed. R. Civ. P. 78(b); for the
reasons stated in the Opinion filed on this date, and for good cause shown:
IT IS this 12th day of April, 2019,
ORDERED that the Plaintiffs motion (DE 23) to vacate the arbitration
award is DENIED.

c
HON* KEVIN MCNULTY, IKSjD.J.

al2
Case 2:16-cv-01573-KM-MAH Document 8-2 Filed 05/31/16 Page 95 of 97 PagelD: 149
Jrrugejlepon

2009 U.S. Employee Handbook Acknowledgement Receipt
When you dick on the 'I Acknowledge* button below, you are acknowledging that
• You have opened the e-mail that directed you to this Web site.
• You have received the Web (ink to the Employee Handbook.
• You understand that it's your obligation to read the Handbook and become famfter
with its terms.
• Appended to the Handbook is an Employment Arbitration Policy as well ae the
"Principles of Employment* that require you to submit employment-related disputes to
binding arbitration (see Appendix A end Appendix D). You understand that it ia your
obligation to read these documents carefully, and that no provision in this Handbook or
elsewhere is intended to constitute a waiver, nor be construed to constitute a waiver, of
CHI's right to compel arbitration of employment-related disputes.
« WITH THE EXCEPTION OF THE EMPLOYMENT ARBITRATION POLICY YOU
UNDERSTAND THAT NOTHINO CONTAINffn lh| THIS HANDBOOK. NOR THF
HANDBOOK ITSELF IS OONS1DERED A CONTRACT OP EMPLOYMENT IN
ADDITION. NOTHINQ IN THIS HANDBOOK CONSTITUTES A GUARANTEE THAT
YOUR EMPLOYMENT WILL CONTINUE FOR ANY SPEOIFIPD PERIOD OF TIME
YOU UNDERSTAND THAT YOUR FMPI OVMENT WITH OITI IS AT. WILL WHICH
MEANS IT CAN BE TERMINATED RY YOU OR OIT1 AT ANY TIME WITH OR
WITHOUT NOTICE FOR NO RFASON OR ANY RFA5QN NOT OTHPHWISF
PROHIBITED RY I
Please dick the *t Acknowledge’ button below. Once you acknowledge, you'll have
the ability to download and print your copy of the Handbook
This form was electronically acknowledged by.

NAME: Elizarov,Antonla
GEiD: 0004808445
DATE: 12/18/2008

file:///ClAJsers/inm91653/Dasktop/Temp 1 /0004808445s.htm|5/l 3/2015 2:38:44 PM]

j

al3
Case 2:16-cv-01573-KM-MAH

Document 8-2 Filed 05/31/16 Page 96 of 97 PagelD: 150

Sirtiple^RepcrMJft

2011 U.S. Employee Handbook Acknowledgement Receipt

When you click on the "I Acknowledge" button below, you are acknowledging that:
• You have opened the e-mail that directed you to this Web site.
• You have received the Web link to the Employee Handbook.
• You understand that It's your obligation to read the Handbook and become familiar with its terms.

• Appended to the Handbook is an Employment Arbitration Policy as well as the "Principles of
Employment" that require you to subject employment-related disputes to binding arbitration (See
Appendix A and Appendix D). You understand that it is your obligation to read these documents
carefully, and that no provision in this Handbook or elsewhere is intended to constitute a waiver, nor be
construed to constitute a waiver, of Citi's right to compel arbitration of employment-related disputes.

• WITH TUP FXDFPTIDN OP THF FMPLOYMFNT ARRITRATION PDI 1CV VOU
UNDFRfiTAND THAT NOTHING CONTAINED IN THIS HANDRDDK. NOR THE
HANDfinDK ITfiFI F IS DDNRIDFRFD A DDNTRADT OF PM PI OVMFNT IN
ADDITION NOTHING IN THIS HANnROOK CCMSTITIITFS A OIJARANTFP THAT
YD1 JR FMPI DYMFNT WII I DDNITINI IF FDR ANY SPFDtFIFD PFRIDD DF TIMF
YD11 IINDFRRTAND THAT YOt IR FMPI OVMFNT WITH OITI IS AT.VUII I WHIOH
MFANS IT DAN RF TFRMINATFD BY YOU DR OITI AT ANYTIMF WITH DR
WITHOUT NOTIOF FOR NO RFAfiON OR ANY RFASON NOT OTHERWISF
PROHIRITFD RY I AW

Please click the "I Acknowledge” button below. Once you acknowledge, you'll have the ability to download
and print your copy of the Handbook.
This form was electronically acknowledged by:
NAME: Elizarov, Antonia
GEID: 0004608445
DATE: 12/29/2010

file:/i'/Cj/U!ers/inn916S3/Deslaopirrempl/0004808445.htni[S/l3i/2Dl$ 2:38:44 PM]

Case 2:16-cv-01573-KM-MAH

£

£

al4

Document 8-2 Filed 05/31/16 Page 97 of 97 PagelD: 151

■6
$ a -8

z

2
l-

s
sa

1

i
I

11

8 f

*+- I-i
5 1

ili,

?

fill £
I f l !2 £
I4 Ii SI!i is
| ■*, 1 * I

§ 1 S S I
t S ! S

X

|3 1 | 1
o s- A » »
a 5 | 5 i

£ § S 1 i

w1 i 1 i

sni
©

N

l

g 8 g
> > >

t

” UJ

lf|ll

vlsil
||b*2

Ie

>

£

UJ

I

zt<
ag*g
a t 2 Sis
ilo
2

o tt >

aco
zoa
2 CD
□z
UJ

l

il

O

i-

u.

6 if!
£ S3?0IL

II |! j i
illll,
|ig|si Saps

UJ

ttSSh

Inin

Infill
§ S c£“ I

•2 2 Jfgf
| £ -s 1 S i

Ifl S 215

pi i
1%4|!I
Hii|!
ifillI
«

UJ

£ up
3 2 O
ozZ§

5UJ 2r^ZlUJ(0
P
Z £c
> a

z

«UJ

p

ill

P
o2
<<

3398u. E3*|gz
z
So
SPIa 2
UJ a
IS
UJ a O 8
! o to * i 9=)
UJ g 2
2 z o
a
U. z
K

o
z
o

oo

a: >■

i yilo
3lc > ^ I
<

a

as I z
q « liSi o
P

K

Q.
UJ H

H

0

a H a CO
2 Z * 2 5u Z zE d
UJ 2
a
2£
z to
w_
H CC
S
ip
u C

IIs
aas z a

£$ ass sags
G Z

l5
8

I*
E
o1
:5a

§1

n
V E
l

f?€
It

* 8
8
ss

i
T3 o

is
is
a. %

S

.2
c
o

11

r

CJ

Ui

€

! <

O
T“

O

»

5-

^ d Ui

i5SS

| 2

ih-

